               Department of Veterans Affairs
               Office of Inspector General


                   Office of Healthcare Inspections

Report No. 14-02074-06




    Combined Assessment Program
             Review of the 

     Huntington VA Medical Center 

       Huntington, West Virginia 





October 27, 2014

                         Washington, DC 20420
To Report Suspected Wrongdoing in VA Programs and Operations
                    Telephone: 1-800-488-8244
                   E-Mail: vaoighotline@va.gov
         (Hotline Information: www.va.gov/oig/hotline)
                                     CAP Review of the Huntington VA Medical Center, Huntington, WV



                                              Glossary
                 CAP            Combined Assessment Program
                 ED             emergency department
                 EHR            electronic health record
                 EOC            environment of care
                 facility       Huntington VA Medical Center
                 FY             fiscal year
                 MRI            magnetic resonance imaging
                 NA             not applicable
                 NM             not met
                 OIG            Office of Inspector General
                 PACU           post-anesthesia care unit
                 QM             quality management
                 SDS            same day surgery
                 VHA            Veterans Health Administration
                 VISN           Veterans Integrated Service Network




VA OIG Office of Healthcare Inspections
                                               CAP Review of the Huntington VA Medical Center, Huntington, WV



                                           Table of Contents 

                                                                                                                           Page 

Executive Summary ...................................................................................................            i


Objectives and Scope ................................................................................................            1

  Objectives ...............................................................................................................     1

  Scope......................................................................................................................    1


Reported Accomplishment........................................................................................                  2


Results and Recommendations ................................................................................ 3

  QM .......................................................................................................................... 3

  EOC ........................................................................................................................ 6

  Medication Management......................................................................................... 9

  Coordination of Care ............................................................................................... 10

  Acute Ischemic Stroke Care ................................................................................... 11

  MRI Safety .............................................................................................................. 13


Appendixes
  A. Facility Profile ....................................................................................................      15

  B. Strategic Analytics for Improvement and Learning ............................................                              16

  C. VISN Director Comments ..................................................................................                  19

  D. Facility Director Comments ...............................................................................                 20

  E. OIG Contact and Staff Acknowledgments .........................................................                            28

  F. Report Distribution .............................................................................................          29

  G. Endnotes ...........................................................................................................       30





VA OIG Office of Healthcare Inspections
                                     CAP Review of the Huntington VA Medical Center, Huntington, WV



                                Executive Summary 

Review Purpose: The purpose of the review was to evaluate selected health care
facility operations, focusing on patient care quality and the environment of care, and to
provide crime awareness briefings.          We conducted the review the week of
August 4, 2014.

Review Results: The review covered six activities. We made no recommendations
in the following activity:

 Coordination of Care

The facility’s reported accomplishment was offering proactive patient-centered services,
including alternative therapies such as acupuncture, pet therapy, recreational therapy,
and music therapy.

Recommendations: We made recommendations in the following five activities:
Quality Management: Ensure the Quality, Safety, and Value Council meets monthly.
Consistently report results of Focused Professional Practice Evaluations for newly hired
licensed independent practitioners to the Medical Staff Council. Ensure the Medical
Staff Council discusses and documents approval of use of another facility’s providers for
teledermatology services. Require the Cardiopulmonary Resuscitation Committee to
collect code data. Ensure the Transfusion Review Committee members from Medicine
and Anesthesia Services consistently attend meetings.

Environment of Care: Ensure that infection surveillance activities related to construction
projects are conducted and documented in Infection Control Committee minutes.
Require that all food service employees use hairnets and gloves when serving food.
Ensure all privacy curtains in same day surgery and on the post-anesthesia care unit
have open mesh tops that extend 18 inches for sprinkler coverage. Require that same
day surgery has designated rooms for the storage of dirty instruments, equipment, and
housekeeping supplies and that these rooms and the soiled utility room on the
post-anesthesia care unit are secured. Ensure designated eye clinic employees receive
eye laser safety training annually.

Medication Management:        Ensure clinicians conducting medication education
accommodate identified learning barriers and document the accommodations made to
address those barriers.

Acute Ischemic Stroke Care: Develop an acute ischemic stroke policy that addresses
all required items. Complete and document National Institutes of Health stroke scales
for each stroke patient. Post stroke guidelines in the emergency department, on the
intensive care unit, and on the acute inpatient units. Provide printed stroke education to
patients upon discharge. Collect stroke data, and report it to the Veterans Health
Administration.



VA OIG Office of Healthcare Inspections                                                           i
                                     CAP Review of the Huntington VA Medical Center, Huntington, WV


Magnetic Resonance Imaging Safety: Ensure that all designated Level 2 magnetic
resonance imaging personnel receive annual level-specific magnetic resonance imaging
safety training.

Comments
The Veterans Integrated Service Network and Facility Directors agreed with the
Combined Assessment Program review findings and recommendations and provided
acceptable improvement plans. (See Appendixes C and D, pages 19–27, for the full
text of the Directors’ comments.) We consider recommendations 2, 7, 8, 9, and
14 closed. We will follow up on the planned actions for the open recommendations until
they are completed.




                                                           JOHN D. DAIGH, JR., M.D. 

                                                          Assistant Inspector General for 

                                                             Healthcare Inspections





VA OIG Office of Healthcare Inspections                                                           ii
                                     CAP Review of the Huntington VA Medical Center, Huntington, WV



                              Objectives and Scope 

Objectives
CAP reviews are one element of the OIG’s efforts to ensure that our Nation’s veterans
receive high quality VA health care services. The objectives of the CAP review are to:

   	 Conduct recurring evaluations of selected health care facility operations, focusing
      on patient care quality and the EOC.

   	 Provide crime awareness briefings to increase employee understanding of the
      potential for program fraud and the requirement to refer suspected criminal
      activity to the OIG.

Scope
The scope of the CAP review is limited. A serious issue regarding QM that came to our
attention and was outside the scope of this review will be referred for a hotline
investigation.

For this review, we examined selected clinical and administrative activities to determine
whether facility performance met requirements related to patient care quality and the
EOC. In performing the review, we inspected selected areas, conversed with managers
and employees, and reviewed clinical and administrative records. The review covered
the following six activities:

   	 QM

   	 EOC

   	 Medication Management

   	 Coordination of Care

   	 Acute Ischemic Stroke Care

   	 MRI Safety

We have listed the general information reviewed for each of these activities. Some of
the items listed may not have been applicable to this facility because of a difference in
size, function, or frequency of occurrence.

The review covered facility operations for FY 2013 and FY 2014 through
August 8, 2014, and was done in accordance with OIG standard operating procedures
for CAP reviews.     We also asked the facility to provide the status on the
recommendations we made in our previous CAP report (Combined Assessment



VA OIG Office of Healthcare Inspections                                                          1
                                     CAP Review of the Huntington VA Medical Center, Huntington, WV


Program Review of the Huntington VA Medical Center, Huntington, West Virginia,
Report No. 12-02602-79, January 7, 2013). We made a repeat recommendation in QM.

During this review, we presented crime awareness briefings for 71 employees. These
briefings covered procedures for reporting suspected criminal activity to the OIG and
included case-specific examples illustrating procurement fraud, conflicts of interest, and
bribery.

Additionally, we surveyed employees regarding patient safety and quality of care at the
facility. An electronic survey was made available to all facility employees, and
171 responded. We shared summarized results with facility managers.

In this report, we make recommendations for improvement. Recommendations pertain
to issues that are significant enough to be monitored by the OIG until corrective actions
are implemented.

                          Reported Accomplishment 

Proactive Patient-Centered Innovative Services
Several innovative services are offered to achieve proactive, personalized, and
patient-centered care. These include alternative therapies such as acupuncture; pet
therapy; recreational therapy, including the Healing Waters Fly Fishing program; and
music therapy, including the Guitars for Vets program. Additionally, visiting hours are
less restrictive than previously, and an Intensive Care Unit Care Line was developed so
that families can have better access to information about their loved ones.




VA OIG Office of Healthcare Inspections                                                          2
                                           CAP Review of the Huntington VA Medical Center, Huntington, WV



                          Results and Recommendations 

QM
The purpose of this review was to determine whether facility senior managers actively supported
and appropriately responded to QM efforts and whether the facility met selected requirements
within its QM program.a

We conversed with senior managers and key QM employees, and we evaluated meeting
minutes, EHRs, and other relevant documents. The table below shows the areas reviewed for
this topic. The areas marked as NM did not meet applicable requirements and needed
improvement. Any items that did not apply to this facility are marked NA.

 NM                    Areas Reviewed                                     Findings
  X     There was a senior-level committee/group       Although facility policy required monthly
        responsible for QM/performance                  meetings, the Quality, Safety, and Value
        improvement that met regularly.                 Council did not meet January through
         There was evidence that outlier data was      June 2014.
           acted upon.
         There was evidence that QM, patient
           safety, and systems redesign were
           integrated.
        The protected peer review process met
        selected requirements:
         The Peer Review Committee was chaired
           by the Chief of Staff and included
           membership by applicable service chiefs.
         Actions from individual peer reviews were
           completed and reported to the Peer
           Review Committee.
         The Peer Review Committee submitted
           quarterly summary reports to the Medical
           Executive Committee.
         Unusual findings or patterns were
           discussed at the Medical Executive
           Committee.
  X     Focused Professional Practice Evaluations     Nine profiles reviewed:
        for newly hired licensed independent           Results of three Focused Professional
        practitioners were initiated and completed,      Practice Evaluations completed in FY 2013
        and results were reported to the Medical         were not reported to the Medical Staff
        Executive Committee.                             Council. This was a repeat finding from the
                                                         previous CAP review.




VA OIG Office of Healthcare Inspections                                                                3
                                              CAP Review of the Huntington VA Medical Center, Huntington, WV


 NM              Areas Reviewed (continued)                                  Findings
        Observation bed use met selected
        requirements:
         Local policy included necessary elements.
         Data regarding appropriateness of
           observation bed usage was gathered.
         If conversions to acute admissions were
           consistently 30 percent or more,
           observation criteria and utilization were
           reassessed timely.
        Staff performed continuing stay reviews on at
        least 75 percent of patients in acute beds.
  X     The process to review resuscitation events         Twelve months of Cardiopulmonary
        met selected requirements:                         Resuscitation Committee meeting minutes
         An interdisciplinary committee was               reviewed:
           responsible for reviewing episodes of care       There was no evidence that data were
           where resuscitation was attempted.                 collected.
         Resuscitation event reviews included
           screening for clinical issues prior to events
           that may have contributed to the
           occurrence of the code.
         Data were collected that measured
           performance in responding to events.
        The surgical review process met selected
        requirements:
         An interdisciplinary committee with
           appropriate leadership and clinical
           membership met monthly to review
           surgical processes and outcomes.
         Surgical deaths with identified problems or
           opportunities for improvement were
           reviewed.
         Additional data elements were routinely
           reviewed.
        Critical incidents reporting processes were
        appropriate.
        The process to review the quality of entries in
        the EHR met selected requirements:
         A committee was responsible to review
           EHR quality.
         Data were collected and analyzed at least
           quarterly.
         Reviews included data from most services
           and program areas.
        The policy for scanning non-VA care
        documents met selected requirements.




VA OIG Office of Healthcare Inspections                                                                   4
                                               CAP Review of the Huntington VA Medical Center, Huntington, WV


 NM             Areas Reviewed (continued)                                     Findings
  X     The process to review blood/transfusions          Four quarters of Transfusion Review Committee
        usage met selected requirements:                  meeting minutes reviewed:
         A committee with appropriate clinical            Clinical representatives from Medicine and
           membership met at least quarterly to             Anesthesia Services attended only two of four
           review blood/transfusions usage.                 meetings.
         Additional data elements were routinely
           reviewed.
        Overall, if significant issues were identified,
        actions were taken and evaluated for
        effectiveness.
        Overall, senior managers were involved in
        performance improvement over the past
        12 months.
        Overall, the facility had a comprehensive,
        effective QM/performance improvement
        program over the past 12 months.
        The facility met any additional elements
        required by VHA or local policy.

Recommendations

1.   We recommended that the Quality, Safety, and Value Council meet monthly.

2. We recommended that processes be strengthened to ensure that results of Focused
Professional Practice Evaluations for newly hired licensed independent practitioners are
consistently reported to the Medical Staff Council.

3. We recommended that the Medical Staff Council discuss and document its approval of the
use of another facility’s providers for teledermatology services.

4. We recommended that processes be strengthened to ensure that the Cardiopulmonary
Resuscitation Committee collects code data.

5. We recommended that processes be strengthened to ensure that the Transfusion Review
Committee members from Medicine and Anesthesia Services consistently attend meetings.




VA OIG Office of Healthcare Inspections                                                                    5
                                            CAP Review of the Huntington VA Medical Center, Huntington, WV


EOC
The purpose of this review was to determine whether the facility maintained a clean and safe
health care environment in accordance with applicable requirements and whether the facility
met selected requirements in SDS, the PACU, and the eye clinic.b

We inspected the SDS, intensive care, telemetry, inpatient medical/surgical, and dialysis units.
We also inspected an oncology clinic, the ED, the PACU, the eye clinic, and the women’s
health building. Additionally, we reviewed relevant documents, conversed with key employees
and managers, and reviewed 13 employee training records (7 SDS, 5 PACU, and 1 eye clinic).
The table below shows the areas reviewed for this topic. The areas marked as NM did not
meet applicable requirements and needed improvement. Any items that did not apply to this
facility are marked NA.

 NM           Areas Reviewed for General EOC                                Findings
        EOC Committee minutes reflected sufficient
        detail regarding identified deficiencies,
        corrective actions taken, and tracking of
        corrective actions to closure.
        An infection prevention risk assessment was
        conducted, and actions were implemented to
        address high-risk areas.
  X     Infection Prevention/Control Committee          Eight months of Infection Prevention/Control
        minutes documented discussion of identified     Committee meeting minutes reviewed:
        problem areas and follow-up on implemented       Minutes did not reflect infection surveillance
        actions and included analysis of surveillance      activities associated with specific construction
        activities and data.                               projects and/or interventions.
        Fire safety requirements were met.
        Environmental safety requirements were met.
        Infection prevention requirements were met.
        Medication safety and security requirements
        were met.
        Auditory privacy requirements were met.
  X     The facility complied with any additional       VHA policy on food service management
        elements required by VHA, local policy, or      reviewed:
        other regulatory standards.                      We observed food service employees serving
                                                           food in the cafeteria without using hairnets
                                                           and gloves, the required safety and health
                                                           barriers.
          Areas Reviewed for SDS and the PACU
        Designated SDS and PACU employees
        received bloodborne pathogens training
        during the past 12 months.
 NA     Designated SDS employees received
        medical laser safety training with the
        frequency required by local policy.




VA OIG Office of Healthcare Inspections                                                                   6
                                           CAP Review of the Huntington VA Medical Center, Huntington, WV


 NM      Areas Reviewed for SDS and the PACU                                Findings
                       (continued)
  X     Environmental safety requirements in SDS        The two SDS negative pressure room
        and on the PACU were met.                        anterooms were being used for storage of
                                                         dirty instruments, equipment, and
                                                         housekeeping supplies, and both rooms were
                                                         unlocked and unattended.
                                                        The PACU soiled utility room was unlocked
                                                         and unattended.
                                                        In SDS and on the PACU, not all privacy
                                                         curtains had open mesh tops that extended
                                                         18 inches for sprinkler coverage.
        SDS medical laser safety requirements were
        met.
        Infection prevention requirements in SDS and
        on the PACU were met.
        Medication safety and security requirements
        in SDS and on the PACU were met.
        Auditory privacy requirements in SDS and on
        the PACU were met.
        The facility complied with any additional
        elements required by VHA, local policy, or
        other regulatory standards.
                Areas Reviewed for Eye Clinic
  X     Designated eye clinic employees received        The provider who performed eye laser
        laser safety training with the frequency         procedures did not receive annual laser
        required by local policy.                        safety training.
        Environmental safety requirements in the eye
        clinic were met.
        Infection prevention requirements in the eye
        clinic were met.
        Medication safety and security requirements
        in the eye clinic were met.
        Laser safety requirements in the eye clinic
        were met.
        The facility complied with any additional
        elements required by VHA, local policy, or
        other regulatory standards.

Recommendations

6. We recommended that processes be strengthened to ensure that infection surveillance
activities related to construction projects are conducted and documented in Infection Control
Committee minutes.

7. We recommended that processes be strengthened to ensure that all food service
employees use hairnets and gloves when serving food.




VA OIG Office of Healthcare Inspections                                                                7
                                          CAP Review of the Huntington VA Medical Center, Huntington, WV


8. We recommended that all privacy curtains in same day surgery and on the post-anesthesia
care unit have open mesh tops that extend 18 inches for sprinkler coverage.

9. We recommended that same day surgery have designated rooms for the storage of dirty
instruments, equipment, and housekeeping supplies and that these rooms and the soiled utility
room on the post-anesthesia care unit be secured.

10. We recommended that processes be strengthened to ensure that designated eye clinic
employees receive eye laser safety training annually and that compliance be monitored.




VA OIG Office of Healthcare Inspections                                                               8
                                             CAP Review of the Huntington VA Medical Center, Huntington, WV


Medication Management
The purpose of this review was to determine whether the appropriate clinical oversight and
education were provided to patients discharged with orders for fluoroquinolone oral antibiotics.c

We reviewed relevant documents and conversed with key managers and employees.
Additionally, we reviewed the EHRs of 35 randomly selected inpatients discharged on 1 of
3 selected oral antibiotics. The table below shows the areas reviewed for this topic. The area
marked as NM did not meet applicable requirements and needed improvement. Any items that
did not apply to this facility are marked NA.

NM                      Areas Reviewed                                      Findings
       Clinicians conducted inpatient learning
       assessments within 24 hours of admission or
       earlier if required by local policy.
 X     If learning barriers were identified as part of    None of the EHRs of the 14 patients with
       the learning assessment, medication                 identified learning barriers reflected
       counseling was adjusted to accommodate the          medication counseling accommodation to
       barrier(s).                                         address the barriers.
       Patient renal function was considered in
       fluoroquinolone dosage and frequency.
       Providers completed discharge progress
       notes or discharge instructions, written
       instructions were provided to
       patients/caregivers, and EHR documentation
       reflected that the instructions were
       understood.
       Patients/caregivers were provided a written
       medication list at discharge, and the
       information was consistent with the dosage
       and frequency ordered.
       Patients/caregivers were offered medication
       counseling, and this was documented in
       patient EHRs.
       The facility established a process for
       patients/caregivers regarding whom to notify
       in the event of an adverse medication event.
       The facility complied with any additional
       elements required by VHA or local policy.

Recommendation

11. We recommended that processes be strengthened to ensure that clinicians conducting
medication education accommodate identified learning barriers and document the
accommodations made to address those barriers and that compliance is monitored.




VA OIG Office of Healthcare Inspections                                                                  9
                                             CAP Review of the Huntington VA Medical Center, Huntington, WV


Coordination of Care
The purpose of this review was to evaluate discharge planning for patients with selected
aftercare needs.d

We reviewed relevant documents and conversed with key employees. Additionally, we
reviewed the EHRs of 35 randomly selected patients with specific diagnoses who were
discharged from July 1, 2012, through June 30, 2013. The table below shows the areas
reviewed for this topic. Any items that did not apply to this facility are marked NA. The facility
generally met requirements. We made no recommendations.

 NM                     Areas Reviewed                                      Findings
        Patients’ post-discharge needs were
        identified, and discharge planning addressed
        the identified needs.
        Clinicians provided discharge instructions to
        patients and/or caregivers and validated their
        understanding.
        Patients received the ordered aftercare
        services and/or items within the
        ordered/expected timeframe.
        Patients’ and/or caregivers’ knowledge and
        learning abilities were assessed during the
        inpatient stay.
        The facility complied with any additional
        elements required by VHA or local policy.




VA OIG Office of Healthcare Inspections                                                                 10
                                              CAP Review of the Huntington VA Medical Center, Huntington, WV


Acute Ischemic Stroke Care
The purpose of this review was to determine whether the facility complied with selected
requirements for the assessment and treatment of patients who had an acute ischemic stroke.e

We reviewed relevant documents, the EHRs of 35 randomly selected patients who experienced
stroke symptoms, and 20 staff training records (5 ED, 5 intensive care unit, 5 4South, and
5 5South), and we conversed with key employees. We also conducted onsite inspections of the
ED, the intensive care unit, and two acute inpatient units. The table below shows the areas
reviewed for this topic. The areas marked as NM did not meet applicable requirements and
needed improvement. Any items that did not apply to this facility are marked NA.

NM                      Areas Reviewed                                       Findings
 X     The facility’s stroke policy/plan/guideline        The facility did not have a policy in place that
       addressed all required items.                       addressed the management of AIS.
 X     Clinicians completed the National Institutes of    None of the 35 EHRs contained documented
       Health stroke scale for each patient within the     evidence of completed stroke scales.
       expected timeframe.
       Clinicians provided medication tissue
       plasminogen activator timely to halt the stroke
       and included all required steps, and tissue
       plasminogen activator was in stock or
       available within 15 minutes.
 X     Stroke guidelines were posted in all areas         Stroke guidelines were not posted on the two
       where patients may present with stroke              acute inpatient units, in the ED, or on the
       symptoms.                                           intensive care unit.
       Clinicians screened patients for difficulty
       swallowing prior to oral intake of food or
       medicine.
 X     Clinicians provided printed stroke education to    None of the 35 EHRs contained
       patients upon discharge.                            documentation that stroke education was
                                                           provided to the patient/caregiver.
       The facility provided training to staff who are
       involved in assessing and treating stroke
       patients.
 X     The facility collected and reported required       There was no evidence that the following data
       data related to stroke care.                        were collected and/or reported to VHA:
                                                           o Percent of eligible patients given tissue
                                                              plasminogen activator
                                                           o Percent of patients with stroke symptoms
                                                              who had the stroke scale completed
                                                           o Percent of patients screened for difficulty
                                                              swallowing before oral intake
       The facility complied with any additional
       elements required by VHA or local policy.




VA OIG Office of Healthcare Inspections                                                                   11
                                          CAP Review of the Huntington VA Medical Center, Huntington, WV



Recommendations

12. We recommended that the facility develop an acute ischemic stroke policy that addresses
all required items, that the policy be fully implemented, and that compliance be monitored.

13. We recommended that processes be strengthened to ensure that clinicians complete and
document National Institutes of Health stroke scales for each stroke patient and that compliance
be monitored.

14. We recommended that stroke guidelines be posted in the emergency department, on the
intensive care unit, and on the acute inpatient units.

15. We recommended that processes be strengthened to ensure that clinicians provide printed
stroke education to patients upon discharge and that compliance be monitored.
16. We recommended that the facility collect and report to VHA the percent of eligible patients
given tissue plasminogen activator, the percent of patients with stroke symptoms who had the
stroke scale completed, and the percent of patients screened for difficulty swallowing before oral
intake.




VA OIG Office of Healthcare Inspections                                                              12
                                          CAP Review of the Huntington VA Medical Center, Huntington, WV


MRI Safety
The purpose of this review was to determine whether the facility ensured safety in MRI in
accordance with VHA policy requirements related to: (1) staff safety training, (2) patient
screening, and (3) risk assessment of the MRI environment.f

We reviewed relevant documents and the training records of 39 employees (30 randomly
selected Level 1 ancillary staff and 9 designated Level 2 MRI personnel), and we conversed
with key managers and employees. Additionally, we reviewed the EHRs of 35 randomly
selected patients who had an MRI January 1–December 31, 2013. The table below shows the
areas reviewed for this topic. The area marked as NM did not meet applicable requirements
and needed improvement. Any items that did not apply to this facility are marked NA.

NM                     Areas Reviewed                                     Findings
       The facility completed an MRI risk
       assessment, there were documented
       procedures for handling emergencies in MRI,
       and emergency drills were conducted in the
       MRI area.
       Two patient safety screenings were conducted
       prior to MRI, and the secondary patient safety
       screening form was signed by the patient,
       family member, or caregiver and reviewed and
       signed by a Level 2 MRI personnel.
       Any MRI contraindications were noted on the
       secondary patient safety screening form, and
       a Level 2 MRI personnel and/or radiologist
       addressed the contraindications and
       documented resolution prior to MRI.
 X     Level 1 ancillary staff and Level 2 MRI         None of the Level 2 MRI personnel received
       personnel were designated and received           level-specific annual MRI safety training.
       level-specific annual MRI safety training.
       Signage and barriers were in place to prevent
       unauthorized or accidental access to Zones III
       and IV.
       MRI technologists maintained visual contact
       with patients in the magnet room and two-way
       communication with patients inside the
       magnet, and the two-way communication
       device was regularly tested.
       Patients were offered MRI-safe hearing
       protection for use during the scan.
       The facility had only MRI-safe or compatible
       equipment in Zones III and IV, or the
       equipment was appropriately protected from
       the magnet.
       The facility complied with any additional
       elements required by VHA or local policy.




VA OIG Office of Healthcare Inspections                                                              13
                                          CAP Review of the Huntington VA Medical Center, Huntington, WV


Recommendation

17. We recommended that processed be strengthened to ensure that all designated
Level 2 magnetic resonance imaging personnel receive annual level-specific magnetic
resonance imaging safety training and that compliance be monitored.




VA OIG Office of Healthcare Inspections                                                              14
                                            CAP Review of the Huntington VA Medical Center, Huntington, WV
                                                                                              Appendix A


              Facility Profile (Huntington/581) FY 2014 through
                                   July 20141
Type of Organization                                                                   Secondary
Complexity Level                                                                       2-Medium complexity
Affiliated/Non-Affiliated                                                              Affiliated
Total Medical Care Budget in Millions                                                  $214.9
Number of:
    Unique Patients                                                                   27,408
    Outpatient Visits                                                                 293,044
    Unique Employees2                                                                 990
Type and Number of Operating Beds:
    Hospital                                                                          80
    Community Living Center                                                           NA
    Mental Health                                                                     NA
Average Daily Census (as of June 2014):
    Hospital                                                                          40
    Community Living Center                                                           NA
    Mental Health                                                                     NA
Number of Community Based Outpatient Clinics                                           4
Location(s)/Station Number(s)                                                          Prestonsburg/581GA
                                                                                       Charleston/581GB
                                                                                       Williamson/581GD
                                                                                       Logan County/581GE
VISN Number                                                                            9




1
    All data is for FY 2014 through July 2014 except where noted. 

2
    Unique employees involved in direct medical care (cost center 8200) from most recent pay period. 



VA OIG Office of Healthcare Inspections                                                                  15
                                                                   CAP Review of the Huntington VA Medical Center, Huntington, WV
                                                                                                                     Appendix B

                                    Strategic Analytics for Improvement and Learning (SAIL)3




3
    Metric definitions follow the graphs.


VA OIG Office of Healthcare Inspections                                                                                       16
                                                            CAP Review of the Huntington VA Medical Center, Huntington, WV



                                          Scatter Chart 





VA OIG Office of Healthcare Inspections                                                                                17
                                                                                                         CAP Review of the Huntington VA Medical Center, Huntington, WV


                                                                         Metric Definitions
 Measure                       Definition                                                                                    Desired direction
 ACSC Hospitalization          Ambulatory care sensitive condition hospitalizations (observed to expected ratio)             A lower value is better than a higher value
 Adjusted LOS                  Acute care risk adjusted length of stay                                                       A lower value is better than a higher value
 Best Place to Work            Overall satisfaction with job                                                                 A higher value is better than a lower value
 Call Center Responsiveness    Average speed of call center responded to calls in seconds                                    A lower value is better than a higher value
 Call Responsiveness           Call center speed in picking up calls and telephone abandonment rate                          A lower value is better than a higher value
 Complications                 Acute care risk adjusted complication ratio                                                   A lower value is better than a higher value
 Efficiency                    Overall efficiency measured as 1 divided by SFA (Stochastic Frontier Analysis)                A higher value is better than a lower value
 Employee Satisfaction         Overall satisfaction with job                                                                 A higher value is better than a lower value
 HC Assoc Infections           Health care associated infections                                                             A lower value is better than a higher value
 HEDIS                         Outpatient performance measure (HEDIS)                                                        A higher value is better than a lower value
 Mental Health Status          Mental health status (outpatient only, the Veterans RAND 12 Item Health Survey)               A higher value is better than a lower value
 Mental Health Wait Time       Mental health wait time for new and established patients (top 50 clinics; FY13 and later)     A higher value is better than a lower value
 Oryx                          Inpatient performance measure (ORYX)                                                          A higher value is better than a lower value
 Physical Health Status        Physical health status (outpatient only, the Veterans RAND 12 item Health Survey)             A higher value is better than a lower value
 Primary Care Wait Time        Primary care wait time for new and established patients (top 50 clinics; FY13 and later)      A higher value is better than a lower value
 PSI                           Patient safety indicator (observed to expected ratio)                                         A lower value is better than a higher value
 Pt Satisfaction               Overall rating of hospital stay (inpatient only)                                              A higher value is better than a lower value
 RN Turnover                   Registered nurse turnover rate                                                                A lower value is better than a higher value
 RSMR-AMI                      30-day risk standardized mortality rate for acute myocardial infarction                       A lower value is better than a higher value
 RSMR-CHF                      30-day risk standardized mortality rate for congestive heart failure                          A lower value is better than a higher value
 RSMR-Pneumonia                30-day risk standardized mortality rate for pneumonia                                         A lower value is better than a higher value
 RSRR-AMI                      30-day risk standardized readmission rate for acute myocardial infarction                     A lower value is better than a higher value
 RSRR-CHF                      30-day risk standardized readmission rate for congestive heart failure                        A lower value is better than a higher value
 RSRR-Pneumonia                30-day risk standardized readmission rate for pneumonia                                       A lower value is better than a higher value
 SMR                           Acute care in-hospital standardized mortality ratio                                           A lower value is better than a higher value
 SMR30                         Acute care 30-day standardized mortality ratio                                                A lower value is better than a higher value
 Specialty Care Wait Time      Specialty care wait time for new and established patients (top 50 clinics; FY13 and later)    A higher value is better than a lower value




VA OIG Office of Healthcare Inspections                                                                                                                                    18
                                     CAP Review of the Huntington VA Medical Center, Huntington, WV
                                                                                       Appendix C
                               VISN Director Comments



                       Department of
                       Veterans Affairs                            Memorandum


           Date:       October 6, 2014

          From:        Director, VA Mid South Healthcare Network (10N9)

       Subject: 	      CAP Review of the Huntington VA Medical Center,
                       Huntington, WV

             To: 	     Director, Washington, DC, Office of Healthcare Inspections
                       (54DC)

                       Director, Management Review Service (VHA 10AR MRS
                       OIG CAP CBOC)

       1. I have reviewed and concur with the findings and recommendations in
          the report of the CAP review of the Huntington VA Medical Center,
          Huntington, WV.

       2. Corrective action plans have been established with completion dates
          as detailed in the attached report.

       3. If you have any questions or need additional information, contact
          Cynthia L. Johnson, VISN 9 Quality Management Officer or
          Joseph Schoeck, VISN 9 Health Systems Specialist/Staff Assistant to
          the Network Director at 615-695-2200.


             (original signed by:)
           JOHN E. PATRICK

           Network Director 





VA OIG Office of Healthcare Inspections                                                         19
                                     CAP Review of the Huntington VA Medical Center, Huntington, WV
                                                                                       Appendix D
                               Facility Director Comments



                        Department of
                        Veterans Affairs                           Memorandum


           Date:        September 30, 2014

          From:         Director, Huntington VA Medical Center (581/00)

       Subject: 	       CAP Review of the Huntington VA Medical Center,
                        Huntington, WV

             To:        Director, VA Mid South Healthcare Network (10N9)

       I wish to extend my thanks to the Office of the Inspector General (OIG) for
       conducting a professional review of the organization.                 The
       recommendations contained in the Comprehensive Assessment Program
       report have been reviewed.         Attached are the facility responses
       addressing each recommendation, including actions that are in progress
       and those that have already been completed.


       (original signed by:)
       J. Brian Nimmo
       Medical Center Director




VA OIG Office of Healthcare Inspections                                                         20
                                     CAP Review of the Huntington VA Medical Center, Huntington, WV


                                  Comments to OIG’s Report


The following Director’s comments are submitted in response to the recommendations
in the OIG report:

OIG Recommendations

Recommendation 1. We recommended that the Quality, Safety, and Value Council
meet monthly.

Concur

Target date for completion: March 31, 2015

Facility Response: The facility Quality/Safety/Value Council will begin meeting monthly.
The next scheduled meeting, with the Medical Center Director as chairperson, is on
October 8, 2014. Evidence of compliance with the recommendation will be documented
by monthly meeting minutes, October 2014 through March 31, 2015.

Recommendation 2. We recommended that processes be strengthened to ensure that
results of Focused Professional Practice Evaluations for newly hired licensed
independent practitioners are consistently reported to the Medical Staff Council.

Concur

Target date for completion: Completed

Facility Response: In January 2014 the organization implemented a standardized
Focused Professional Practice Evaluation (FPPE) spreadsheet for tracking/monitoring
timely completion of FPPE in all clinical services. Each Service updates the tracker on
a monthly basis. The information is then reviewed monthly by staff in the Credentialing
office and the Chief of Staff’s office. Service Chiefs also report on the status of all active
FPPEs during the monthly Professional Standards Board (PSB), with discussions and
decisions focused on how to ensure timely completion of FPPEs for individuals with low
volume. This information is reported up to the Medical Staff Council.

Recommendation 3. We recommended that the Medical Staff Council discuss and
document its approval of the use of another facility’s providers for teledermatology
services.

Concur

Target date for completion: March 31, 2015

Facility Response: The Medical Staff Council (MSC) discussed and documented
approval of tele-dermatology services on July 7, 2014. The Facility Telehealth
Coordinator is invited to all MSC meetings to ensure the use of all new tele-health



VA OIG Office of Healthcare Inspections                                                         21
                                     CAP Review of the Huntington VA Medical Center, Huntington, WV


technology is presented to MSC for approval prior to implementation. Compliance will
be evidenced by documentation of MSC minutes for six (6) consecutive months
(October 2014 through March 2015).

Recommendation 4. We recommended that processes be strengthened to ensure that
the Cardiopulmonary Resuscitation Committee collects code data.

Concur

Target date for completion: March 31, 2015

Facility Response: Members of the OIG CAP inspection team noted that the
Cardiopulmonary Resuscitation Committee reviewed individual episodes of care where
resuscitation was attempted.

The Cardiopulmonary Resuscitation Committee will take the monthly reviews collected
and it will aggregate them into a monthly report that tracks and trends the following
information:
    ‐ Errors or deficiencies in technique or procedures 

    ‐ Lack of availability or malfunction of equipment 

    ‐ ACLS Algorithms followed appropriately

    ‐ Identified Clinical Issues resulting in a Code Blue 

    ‐ Delays in initiating CPR (<5 minute standard) 

    ‐ Intubation and use of ETCO2 (if appropriate) 

    ‐ Number of Codes/Survivals to Discharge (Percentages) 

    ‐ Code Blue by shift 

    ‐ Code Blues by Locations 

    ‐ Rapid Responses/Code Blues (Total Numbers) 

    ‐ Rapid Response/Code Blues resulted in transfer to Critical Care Unit, telemetry, 

       or remained on the floor 

    ‐ Rapid Responses by shift 

    ‐ Rapid Response Locations


The first report will be completed by October 31, 2014 and will aggregate the 4th quarter
FY2014 data. The aggregate report will then be reported to the Critical Care Committee
and the Medical Staff Council quarterly. Evidence of compliance will be documented in
the meeting minutes of the Critical Care Committee and the Medical Staff Council and
will represent the 4th quarter FY14 data and the 1st quarter FY15 data.

Recommendation 5. We recommended that processes be strengthened to ensure that
the Transfusion Review Committee members from Medicine and Anesthesia Services
consistently attend meetings.

Concur

Target date for completion: March 31, 2015




VA OIG Office of Healthcare Inspections                                                         22
                                     CAP Review of the Huntington VA Medical Center, Huntington, WV


Facility Response: The following corrective action plan was implemented on
August 19, 2014.
   1. Meetings will be scheduled in advance to provide adequate notice to members to
        allow for planning to attend the scheduled meeting. The next scheduled meeting
        is October 27, 2014 at 9 a.m.
   2. The Quality Management Coordinator, or designee, will contact all members
        within 48 hours prior to the scheduled meeting to ensure awareness of the
        scheduled meeting and any reports that are due.
   3. Time has	 been blocked for the Chief, Anesthesia Services to attend the
        scheduled meetings.
   4. If a member is not able to attend, the Service Chief will be contacted by the QM
        Coordinator, or designee, to ensure the service is represented for the meeting.
Evidence of compliance will include meeting minutes from the 1st and 2nd quarters
FY2015.

Recommendation 6. We recommended that processes be strengthened to ensure that
infection surveillance activities related to construction projects are conducted and
documented in Infection Control Committee minutes.

Concur

Target date for completion: March 31, 2015

Facility response: The Infection Control Practitioner will ensure that infection
surveillance activities related to construction projects are completed and that these
activities are documented in the meeting minutes of the Infection Control Committee.
Evidence of compliance will include meeting minutes, at a minimum of once a quarter,
for the 1st and 2nd quarters of FY2015.

Recommendation 7. We recommended that processes be strengthened to ensure that
all food service employees use hairnets and gloves when serving food.

Concur

Target date for completion: Completed

Facility Response: Canteen employees were provided with on the spot training during
the actual on site survey and were immediately instructed to begin wearing hair nets
and gloves. Employees were observed as compliant following this immediate corrective
action. On August 23, 2014 the Veterans Canteen Service Central Office (VCSCO)
sent a corporate trainer for VCSCO to conduct a Conduct Food Service Sanitation and
Safety course for the entire Canteen staff at VAMC Huntington. A total of nine
employees, representing 100% of the service’s employees) completed the training. The
education included training on the importance of hair nets and gloves during food
preparation and service. The expectation was set that employees would be held
accountable for failure to adhere to these standards. The Service Chief will monitor on
a daily basis for continued compliance with these standards.



VA OIG Office of Healthcare Inspections                                                         23
                                     CAP Review of the Huntington VA Medical Center, Huntington, WV


Recommendation 8. We recommended that all privacy curtains in same day surgery
and on the post-anesthesia care unit have open mesh tops that extend 18 inches for
sprinkler coverage.

Concur

Target date for completion: Completed

Facility Response: All of the privacy curtains in the Same Day Surgery (SDS) and Post
Anesthesia Care Units (PACU) were changed by September 29, 2014. The facility is
now 100% compliant in both SDS and the PACU.

Recommendation 9. We recommended that same day surgery have designated
rooms for the storage of dirty instruments, equipment, and housekeeping supplies and
that these rooms and the soiled utility room on the post-anesthesia care unit be
secured.

Target date for completion: Completed

Facility Response: The Same Day Surgery (SDS) unit now has a designated storage
room for dirty instruments and equipment. The room is marked with biohazard storage
signs and is a locked area. The Post Anesthesia Care Unit (PACU) now has a room
that is also designated for soiled items. All rooms designated for receipt of soiled (i.e.
dirty) items are now secured by push button locks. Staff are able to access these
rooms by entering the correct code to release the lock.

Recommendation 10. We recommended that processes be strengthened to ensure
that designated eye clinic employees receive eye laser safety training annually and that
compliance be monitored.

Concur

Target date for completion: October 31, 2014

Facility Response: An eye clinic laser safety standard operating procedure (SOP) has
been created. Training of the designated eye clinic employees on eye laser safety will
be completed through a course in the VA Talent Management System (TMS). Evidence
of training will be submitted via a TMS report.

Recommendation 11. We recommended that processes be strengthened to ensure
that clinicians conducting medication education accommodate identified learning
barriers and document the accommodations made to address those barriers and that
compliance be monitored.

Concur

Target date for completion: March 31, 2015



VA OIG Office of Healthcare Inspections                                                         24
                                     CAP Review of the Huntington VA Medical Center, Huntington, WV


Facility Response: Documentation is being added to the template used for recording
medication reconciliation in the electronic medical record of patients. The template will
include mandatory fields that address learning barriers and how these barriers were
addressed. Monitoring of compliance with the revised templates will be conducted
through clinical pertinence reviews conducted by the clinical services. Clinical
pertinence reviews will be reported to the Medical Records Committee as per the
routine schedule of the committee. Quality Management will aggregate a report
quarterly that records the overall facility compliance rate, which is expected to be
90% or greater each quarter. Evidence of compliance with this recommendation will
occur when the target has been reached for three consecutive months.

The following is from the revised template.




Recommendation 12. We recommended that the facility develop an acute ischemic
stroke policy that addresses all required items, that the policy be fully implemented, and
that compliance be monitored.

Concur

Target date for completion: December 31, 2014

Facility Response: The facility has a draft Medical Center Memorandum (MCM) that
was discussed at the Medical Staff Council meeting on September 24, 2014. Additional
edits will be made to the draft MCM prior to sending it back to the Medical Staff Council
(MSC) for approval. Once approved by the MSC, the MCM will be sent on to the
Medical Center Director for final signature approval. Compliance with the contents of
the MCM will be monitored by the staff of Quality Management on an ongoing basis
(please see the facility response under recommendation 13).

Recommendation 13. We recommended that processes be strengthened to ensure
that clinicians complete and document National Institutes of Health stroke scales for
each stroke patient and that compliance be monitored.

Concur

Target date for completion: March 31, 2015

Facility Response: The facility has established a data collection process with the
assistance of the Decision Support System (DSS) Clinical Coordinator. The Assistant
Chief, Quality Management will obtain the names of patients who have been in the
Emergency Department or on the inpatient units with a stroke diagnosis. Data
collection, including review of the patients’ medical records, will be conducted monthly.


VA OIG Office of Healthcare Inspections                                                         25
                                     CAP Review of the Huntington VA Medical Center, Huntington, WV


Aggregate data reports will be provided to the Critical Care Committee for analysis and
recommendation. Data will also be reported up to the Medical Staff Council. The first
quarter of data reviewed represents the 3rd quarter FY2014. As identified in the data,
use of and documentation of the NIH Stroke Scale is below the target for compliance.
This will be the first area of improvement that the Critical Care Committee is asked to
address.

Recommendation 14. We recommended that stroke guidelines be posted in the
emergency department, on the intensive care unit, and on the acute inpatient units.

Concur

Target date for completion: Completed

Facility Response:  On Wednesday, August 6, 2014, during the CAP review, FAST
(Face-Arms-Speech-Time) signs were laminated and placed in all eleven elevators
within the main medical center building, in hallways, all inpatient units and the
Emergency Department (ED). All signs are in areas visible to patients, visitors, and
employees. Additional posters were laminated and hung within the facility outpatient
clinics, the mental health buildings, the women’s clinic, and the Community Based
Outpatient Clinics (CBOC) and rural outreach clinics on August 7, 2014.

Recommendation 15. We recommended that processes be strengthened to ensure
that clinicians provide printed stroke education to patients upon discharge and that
compliance be monitored.
Concur

Target date for completion: March 31, 2015

Facility Response: The Emergency Department and inpatient unit (i.e. Intensive Care
Unit, 4 South, and 5 South) Nurse Managers, Clinical Unit Coordinators and Clinical
Nurse Leaders were educated about the Krames on Demand patient education
documentation and how to print the education for patients. Information was also
provided on the UP to date system of patient education tools. This was completed by
August 6, 2014. Monitoring of compliance will be added to the data collection described
in Recommendations #13 and #16 beginning with the 4th quarter FY2014.
Recommendation 16. We recommended that the facility collect and report to VHA the
percent of eligible patients given tissue plasminogen activator, the percent of patients
with stroke symptoms who had the stroke scale completed, and the percent of patients
screened for difficulty swallowing before oral intake.
Concur

Target date for completion: March 31, 2015




VA OIG Office of Healthcare Inspections                                                         26
                                     CAP Review of the Huntington VA Medical Center, Huntington, WV


Facility Response: As described under Recommendation #13, the facility has
established a data collection process. The facility is designated as a “supporting stroke
facility” and tissue plasminogen activator will not be given at the Medical Center. The
Assistant Chief, Quality Management will collect the names of patients who have been
in the Emergency Department or on the inpatient units with a stroke diagnosis. Data
collection, including review of the patients’ medical records, will be conducted monthly.
Aggregate data reports will be provided to the Critical Care Committee for analysis and
recommendation. Data will also be reported up to the Medical Staff Council. The first
quarter of data reviewed represents the 3rd quarter FY2014.

Recommendation 17. We recommended that processed be strengthened to ensure
that all designated Level 2 magnetic resonance imaging personnel receive annual
level-specific magnetic resonance imaging safety training and that compliance be
monitored.

Concur

Target date for completion: November 15, 2014

Facility Response: Imaging service was able to obtain a DVD which reviews all content
suggested by the OIG for Level 2 employees. A conference room in the Library has
been designated as the training location for employees who need to complete the
Level 2 training.    Training will include a DVD and review of Medical Center
Memorandum PCI-79: Magnetic Resonance Imaging (MRI) Emergency Response
Preparedness. The target date for completion of training is October 27, 2014. A sign in
sheet will be used to document completion of the training.

Learning Resources is taking on the task of making the Level 2 DVD training
508 compliant so that it can be added to the VA Talent Management System (TMS) for
future trainings. The estimated installation date into TMS is on or before of
November 1, 2014. Once the training program is entered into TMS, the sign in sheets
will be used to permanently record the employee training in TMS.

Level 1 MRI training is already completed annually at the facility. Level 2 training will
added as an annual training and will be reviewed annually by the MRI Lead
Technologist, and monitored by the Imaging Manager and Chief of Radiology.




VA OIG Office of Healthcare Inspections                                                         27
                                     CAP Review of the Huntington VA Medical Center, Huntington, WV
                                                                                       Appendix E


                 OIG Contact and Staff Acknowledgments
Contact                 For more information about this report, please contact the OIG
                        at (202) 461-4720.
Onsite                  Myra Conway, RN, MS, Team Leader
Contributors            Bruce Barnes, BS
                        Gail Bozzelli, RN
                        Katharine Foster, RN
                        Randall Snow, JD
                        Thomas Dominski, Special Agent, Office of Investigations
Other                   Elizabeth Bullock
Contributors            Shirley Carlile, BA
                        Paula Chapman, CTRS
                        Lin Clegg, PhD
                        Marnette Dhooghe, MS
                        Donna Giroux, RN
                        Jeff Joppie, BS
                        Nathan McClafferty, MS
                        Natalie Sadow, MBA
                        Patrick Smith, M. Stat
                        Julie Watrous, RN, MS
                        Jarvis Yu, MS




VA OIG Office of Healthcare Inspections                                                         28
                                     CAP Review of the Huntington VA Medical Center, Huntington, WV
                                                                                        Appendix F


                                   Report Distribution
VA Distribution

Office of the Secretary
VHA
Assistant Secretaries
General Counsel
Director, VA Mid South Healthcare Network (10N9)
Director, Huntington VA Medical Center (581/00)

Non-VA Distribution

House Committee on Veterans’ Affairs
House Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
House Committee on Oversight and Government Reform
Senate Committee on Veterans’ Affairs
Senate Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
Senate Committee on Homeland Security and Governmental Affairs
National Veterans Service Organizations Government Accountability Office
Office of Management and Budget
U.S. Senate: Joe Manchin, III; John D. Rockefeller, IV
U.S. House of Representatives: Shelley Moore Capito, David McKinley, Nick Rahall


This report is available at www.va.gov/oig.




VA OIG Office of Healthcare Inspections                                                         29
                                               CAP Review of the Huntington VA Medical Center, Huntington, WV
                                                                                                 Appendix G

                                                    Endnotes

a
    References used for this topic included:
	 VHA Directive 2009-043, Quality Management System, September 11, 2009.
	 VHA Handbook 1050.01, VHA National Patient Safety Improvement Handbook, March 4, 2011.
	 VHA Directive 2010-017, Prevention of Retained Surgical Items, April 12, 2010.
	 VHA Directive 2010-025, Peer Review for Quality Management, June 3, 2010.
	 VHA Directive 2010-011, Standards for Emergency Departments, Urgent Care Clinics, and Facility Observation
    Beds, March 4, 2010.
	 VHA Directive 2009-064, Recording Observation Patients, November 30, 2009.
	 VHA Handbook 1100.19, Credentialing and Privileging, October 15, 2012.
	 VHA Directive 2008-063, Oversight and Monitoring of Cardiopulmonary Resuscitative Events and Facility
    Cardiopulmonary Resuscitation Committees, October 17, 2008.
	 VHA Handbook 1907.01, Health Information Management and Health Records, September 19, 2012.
	 VHA Directive 6300, Records Management, July 10, 2012.
	 VHA Directive 2009-005, Transfusion Utilization Committee and Program, February 9, 2009.
	 VHA Handbook 1106.01, Pathology and Laboratory Medicine Service Procedures, October 6, 2008.
b
    References used for this topic included:
	 VHA Directive 2011-007, Required Hand Hygiene Practices, February 16, 2011.
	 VHA Handbook 1121.01, VHA Eye Care, March 10, 2011.
	 VHA Handbook 1109.04, Food Services Management Program, October 11, 2013.
	 VA National Center for Patient Safety, “Multi-Dose Pen Injectors,” Patient Safety Alert 13-04, January 17, 2013.
	 “Adenovirus-Associated Epidemic Keratoconjunctivitis Outbreaks –Four States, 2008–2010,” Centers for Disease
    Control and Prevention Morbidity and Mortality Weekly Report, August 16, 2013.
	 Various requirements of The Joint Commission, the Occupational Safety and Health Administration, the
   American National Standards Institute/Advancing Safety in Medical Technology, the Centers for Disease Control
   and Prevention, the International Association of Healthcare Central Service Materiel Management ,the National
   Fire Protection Association, the Health Insurance Portability and Accountability Act, Underwriters Laboratories.
c
  References used for this topic included:
	 VHA Handbook 1108.06, Inpatient Pharmacy Services, June 27, 2006.
	 VHA Handbook 1108.05, Outpatient Pharmacy Services, May 30, 2006.
	 VHA Directive 2011-012, Medication Reconciliation, March 9, 2011.
	 VHA Handbook 1907.01, Health Information Management and Health Records, September 19, 2012.
	 Manufacturer’s instructions for Cipro® and Levaquin®.
	 Various requirements of The Joint Commission.
d
  References used for this topic included:
	 VHA Handbook 1120.04, Veterans Health Education and Information Core Program Requirements,
   July 29, 2009.
	 VHA Handbook 1907.01, Health Information Management and Health Records, September 19, 2012.
	 The Joint Commission, Comprehensive Accreditation Manual for Hospitals, July 2013.
e
  The references used for this topic were:
	 VHA Directive 2011-038, Treatment of Acute Ischemic Stroke, November 2, 2011.
	 Guidelines for the Early Management of Patients with Acute Ischemic Stroke (AHA/ASA Guidelines),
   January 31, 2013.
f
  References used for this topic included:
	 VHA Handbook 1105.05, Magnetic Resonance Imaging Safety, July 19, 2012.
	 Emanuel Kanal, MD, et al., “ACR Guidance Document on MR Safe Practices: 2013,” Journal of Magnetic
   Resonance Imaging, Vol. 37, No. 3, January 23, 2013, pp. 501–530.
	 The Joint Commission, “Preventing accidents and injuries in the MRI suite,” Sentinel Event Alert, Issue 38,
   February 14, 2008.
	 VA National Center for Patient Safety, “MR Hazard Summary,”
   http://www.patientsafety.va.gov/professionals/hazards/mr.asp.
	 VA Radiology, “Online Guide,” http://vaww1.va.gov/RADIOLOGY/OnLine_Guide.asp, updated
   October 4, 2011.



VA OIG Office of Healthcare Inspections                                                                          30
